  Committee on Oversight and Government Reform
             House of Representatives



          Statement of Phyllis K. Fong
Chairperson, Council of the Inspectors General on
             Integrity and Efficiency
 Inspector General, United States Department of
                   Agriculture

      Hearing on Inspector General Vacancies
                   May 10, 2012
Good morning, Chairman Issa, Ranking Member Cummings, and Members of the Committee.

As Chair of the Council of the Inspectors General on Integrity and Efficiency (CIGIE), I am

honored to represent the Federal inspector general (IG) community this morning to discuss our

work and recent accomplishments, and to describe CIGIE’s role in the process of naming

new IGs.


Let me begin by thanking this Committee, on behalf of the IG community, for your continuing

support of our mission and your interest in our work. This support is longstanding and

bipartisan, and we are truly grateful. In particular, we note the Committee’s work on the Data

Accountability and Transparency Act of 2012, 1 which was recently passed by the House and

which contains several provisions that would well serve the IG community.


My testimony today will briefly discuss CIGIE’s mission, recent IG community

accomplishments, and the role that CIGIE plays in identifying candidates for IG vacancies when

they arise.


CIGIE’s Mission


The Inspector General Reform Act of 2008 (IG Reform Act) established CIGIE, a unified

council of statutory Federal IGs, to carry out two key missions:


      •   address integrity, efficiency, and effectiveness issues that transcend individual

          Government agencies; and




1
    H.R. 2164.

                                                    1
    •   increase the professionalism and effectiveness of personnel by developing policies,

        standards, and approaches to aid in the establishment of a well-trained and highly skilled

        workforce in the offices of the Inspectors General. 2


CIGIE’s members currently include 73 IGs from the executive and legislative branches of

Government, as well as six senior administration officials with related portfolios and

responsibilities. 3 OMB’s Deputy Director for Management serves as CIGIE’s Executive

Chairperson, while the Chairperson is an IG elected by the full membership for a 2-year term.

The Chairperson appoints a Vice Chairperson from the IG members of the council.


IG Community Accomplishments


In accordance with CIGIE’s primary mission, over the past several years the IG community has

identified and addressed a number of issues that transcend individual agencies. CIGIE has

issued reports on such topics as cyber security, suspension and debarment, the use of new media,

the effectiveness of the Chief Financial Officers Act of 1990, disaster preparedness programs,

international trade and competitiveness, IG hotline operations and whistleblower protections, the

Federal Audit Clearinghouse, and IG oversight of the American Recovery and Reinvestment Act

of 2009. These reports and others are available on CIGIE’s website at www.ignet.gov.


CIGIE’s training and professional development mission is addressed through our Training

Institute, which offers training to OIG audit, investigative, inspection and evaluation, leadership,



2
  Pub. L. 110-409, Section 11(a)(2).
3
  The other statutory members of CIGIE are the Deputy Director for Management of the Office of Management and
Budget (OMB), the Deputy Director of the Office of Personnel Management, the Special Counsel of the Office of
the Special Counsel, the Assistant Director of the Criminal Investigative Division of the Federal Bureau of
Investigation, the Director of the Office of Government Ethics, and the Comptroller of the Office of Federal
Financial Management of OMB.

                                                      2
and mission support personnel. The institute, which is in a developmental phase, trained over

1,400 students from 56 CIGIE member agencies in fiscal year (FY) 2011.


CIGIE’s standing committees 4 are active bodies that are responsible for, among other things,

developing professional standards that apply to overall OIG operations, as well as OIG audits,

investigations, inspections, and evaluations. 5 CIGIE, through its committees, also manages a

peer review program of IG audit and investigation operations that evaluates OIG adherence to

professional standards. In FY 2012, CIGIE initiated a pilot program to peer review

OIG inspection and evaluation activities on a voluntary basis. The peer review process for all

three disciplines (audit, investigation, inspection/evaluation) entails developing peer review

programs, guides, and training, as well as carrying out the actual reviews on a regular cycle.

Overall, these programs play a critical role in advancing the professionalism of OIG operations

and enhancing confidence in the quality of OIG products.


Finally, CIGIE reports annually to the President on the overall accomplishments of the Federal

IG community. The report for FY 2011 should be released shortly and will be made publicly

available on CIGIE’s website. We anticipate that the statistical results for FY 2011 will be

consistent with, and generally greater than, the results reported for FY 2010. In FY 2010,

Federal OIGs reported $87.2 billion in potential savings as a result of audits, investigations,




4
  There are seven standing committees for Audit, Information Technology, Inspection and Evaluation, Integrity,
Investigations, Legislation, and Professional Development. With the exception of the Integrity Committee, the
committee chairs are IGs elected to those posts. As committee chairs, they serve on CIGIE’s Executive Council and
provide corporate leadership, collaborative vision, and long-term planning to the IG community.
5
  By law, OIG audits must be done in accordance with Government auditing standards promulgated by the
Comptroller General.

                                                        3
inspections, and evaluations. With an aggregate budget of approximately $2.5 billion for

69 OIGs, 6 these potential savings represent a return of about $35 on every dollar invested. 7


In addition to statistical accomplishments, CIGIE’s annual report summarizes some of the shared

management and performance challenges facing many Federal agencies. This is based on the

work done by individual IGs each year, who report the high-risk activities and performance

issues that affect their agencies’ operations or strategic goals. A comparison of these agency-

specific challenges indicates that certain top management challenges are shared by many Federal

agencies. CIGIE’s FY 2010 report identified challenges such as information technology

management and security, financial management and performance, Federal expenditures and

operations under the 2009 Recovery Act, human capital management, procurement and grants

management, and performance management and accountability. Individual IGs continue to work

within their agencies to address these challenges.


IG Vacancies


Under the IG Reform Act, CIGIE is responsible for submitting “recommendations of individuals

to the appropriate appointing authority” for consideration when an IG vacancy arises. 8

Generally, the appointing authority for establishment IGs is the President; the appointing

authority for IGs of designated Federal entities (DFE) is the agency head. As part of this




6
  In October 2010, Congress expanded CIGIE’s membership to include four IGs from the intelligence community.
Their accomplishments will be included in the annual report for FY 2011.
7
  Note that of the $87.2 billion in potential savings reported for FY 2010, nearly $50 billion was reported by the
U.S. Postal Service OIG in connection with its work on civil service retirement system overpayments and the
certification process for electronic payments. In FY 2009, in our first annual report, CIGIE reported $43.8 billion in
potential savings, for a return of approximately $18 on every dollar invested.
8
  Section 11(c)(1)(F). Prior to 2008, the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency, which were CIGIE’s predecessors, did not have a formal role in identifying potential
candidates for IG positions.

                                                          4
process, most IGs appointed by the President are subject to Senate confirmation (PAS IGs),

while IGs appointed by agency heads do not go through Senate confirmation.


To fulfill its responsibilities, CIGIE has established the IG Recommendation Panel to identify

possible candidates for IG positions. The panel is composed of experienced IGs representing

both establishment and DFE entities and is chaired by the IG of the Federal Election

Commission. CIGIE officials actively publicize the panel’s role and activities in presentations to

the IG community; accountability and oversight communities at the Federal, State, and local

levels; and the private sector. In addition, CIGIE provides information to the public on our

website (www.ignet.gov) about the process for filling IG vacancies. Individuals who are

interested in IG positions are encouraged to contact the panel.


The panel asks each potential candidate to submit a resume and complete a standardized

questionnaire covering employment history; professional qualifications; prior OIG, government,

and management experience; and interest in particular agencies or type of appointment. The

panel meets periodically to consider applicants and decide which candidates to refer to the

appointing authorities.


CIGIE works with the appointing authorities to ensure that they are aware of CIGIE’s role in

filling IG vacancies. With respect to establishment IGs, the panel has established a liaison with

the Office of Presidential Personnel and refers candidates on a continuing basis for consideration

for IG appointments as vacancies arise. With respect to DFE IGs, CIGIE notified all

DFE agency heads after passage of the IG Reform Act of our new role in recommending

IG candidates and invited agencies to contact the panel should a vacancy arise. CIGIE also




                                                 5
contacts the appropriate DFE agency head directly when an IG position becomes vacant to offer

our assistance.


It should be noted that while CIGIE plays a role in identifying potential IG candidates, CIGIE is

not the only source of candidates available to appointing authorities. For example, candidates

can contact appointing authorities directly. Also, appointing authorities are not required to act on

or accept CIGIE recommendations when filling IG vacancies.


As of May 7, 2012, CIGIE records indicate that there are ten vacant IG positions; nominations

have been submitted to the Senate for two of them. 9 Since passage of the IG Reform Act in

October 2008, 25 IGs have been appointed to fill vacancies. Of these 25, 13 are PAS IGs and 12

are DFE IGs appointed by their agency heads.


Conclusion


This concludes my written testimony. Thank you again for inviting me to testify today before

the Committee about CIGIE’s activities and accomplishments, and the role that we play in the

process of appointing IGs. I would be pleased to address any questions you may have.




9
 Eight of the ten are Presidentially appointed (seven of these require Senate confirmation), while two are appointed
by agency heads.

                                                         6
